<html>
<title> - TSUNAMI WARNING, PREPAREDNESS, INTERAGENCY COOPERATION: LESSONS LEARNED</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
TSUNAMI WARNING, PREPAREDNESS, INTERAGENCY COOPERATION: LESSONS LEARNED

=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,

                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2011

                               __________

                           Serial No. 112-25

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
68-042                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 14, 2011...................................     1
Statement of:
    Leith, William, Acting Associate Director for Natural 
      Hazards, U.S. Geological Survey, U.S. Department of 
      Interior; Mary Glackin, Deputy Under Secretary for 
      Operations, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce; Nancy Ward, 
      Region IX Administrator, Federal Emergency Management 
      Agency, accompanied by Kenneth Murphy, Region X 
      Administrator, Federal Emergency Management Agency; and 
      John W. Madden, director, Alaska Division of Homeland 
      Security and Emergency Management..........................    23
        Glackin, Mary............................................    32
        Leith, William...........................................    23
        Madden, John W...........................................    52
        Ward, Nancy..............................................    42
Letters, statements, etc., submitted for the record by:
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, various prepared statements.................     3
    Glackin, Mary, Deputy Under Secretary for Operations, 
      National Oceanic and Atmospheric Administration, U.S. 
      Department of Commerce, prepared statement of..............    34
    Leith, William, Acting Associate Director for Natural 
      Hazards, U.S. Geological Survey, U.S. Department of 
      Interior, prepared statement of............................    26
    Madden, John W., director, Alaska Division of Homeland 
      Security and Emergency Management, prepared statement of...    54
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............    21
    Ward, Nancy, Region IX Administrator, Federal Emergency 
      Management Agency, prepared statement of...................    44


TSUNAMI WARNING, PREPAREDNESS, INTERAGENCY COOPERATION: LESSONS LEARNED

                              ----------                              


                       WEDNESDAY, APRIL 14, 2011

                  House of Representatives,
Subcommittee on National Security, Homeland Defense 
                            and Foreign Operations,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:12 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the subcommittee) presiding.
    Present: Representatives Chaffetz, Gosar, Labrador, and 
Tierney.
    Also present: Representative Hanabusa.
    Staff present: Thomas A. Alexander, senior counsel; Molly 
Boyl, parliamentarian; Kate Dunbar, staff assistant; Adam P. 
Fromm, director of Member liaison and floor operations; 
Mitchell S. Kominsky, counsel; Justin Kim and Scott Lindsay, 
minority counsels; and Zieta Merchant, LCDR, fellow.
    Mr. Chaffetz. The committee will come to order.
    Good afternoon and welcome to today's hearing, Tsunami 
Warning, Preparedness and Interagency Cooperation: Lessons 
Learned. I would also like to welcome Ranking Member Tierney, 
members of the subcommittee and those of you watching live on 
the Web cast at oversight.house.gov. Thank you all for joining 
us.
    I appreciate your patience. We have a lot of votes and 
things happening on Capitol Hill today. I appreciate the 
distance that many of you have traveled, some short, some 
rather long. We appreciate it. This is an important topic and 
we appreciate your participation.
    Apologies in advance; we get called out for votes. Also, we 
have a markup going on in the committee I am participating in 
next door, and I may need to go to that as well. Nevertheless, 
we are glad you are here. This is an important topic that 
literally would affect millions of people's lives. Hopefully it 
will never come to that. Hopefully it is just a lesson in 
preparedness. But when that disaster, if, and hopefully it 
doesn't ever happen, the work that you are doing now and the 
preparation is vital to our country and the lives and safety of 
so many Americans and people around the world.
    Fifty thousand people were dead or went missing and 
millions more were suddenly homeless in 11 countries. Our 
Pacific states and territories are also in reach of the 
damaging effects of tsunamis. According to the National Oceanic 
and Atmospheric administration, the contiguous United States 
has suffered from tsunamis originating in Chile, Japan, Russia 
and Alaska. In 2009, American Samoa was struck by a tsunami 
that killed 22 people. That is why we are here today.
    This subcommittee will examine the extent to which the 
Federal Government is capable of determining the threat from 
tsunamis, can issue timely and effective warnings about a 
tsunami and has the plans in place to respond to a tsunami. 
Also, the subcommittee will look at how successful the Federal 
Government is in helping local and State authorities develop 
tsunami-resilient communities, and how these entities conduct 
public outreach. We will also examine lessons learned from 
Japan and the extent to which they can be applied.
    Taxpayers have invested substantial resources to ensure 
U.S. preparedness. The Federal entities principally responsible 
for this mission are the U.S. Geological Survey, NOAA and the 
Federal Emergency Management Agency. Career officials from 
these agencies are here today. We have also invited their State 
counterparts to testify about collaboration with the Federal 
Government.
    A representative from the State of Alaska is here with us 
today. The States of Oregon, Washington and Hawaii have 
submitted their statements for the record. We are only 
disappointed that California chose not to participate.
    I ask unanimous consent that those statements be placed in 
the hearing record. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 68042.001
    
    [GRAPHIC] [TIFF OMITTED] 68042.002
    
    [GRAPHIC] [TIFF OMITTED] 68042.003
    
    [GRAPHIC] [TIFF OMITTED] 68042.004
    
    [GRAPHIC] [TIFF OMITTED] 68042.005
    
    [GRAPHIC] [TIFF OMITTED] 68042.006
    
    [GRAPHIC] [TIFF OMITTED] 68042.007
    
    [GRAPHIC] [TIFF OMITTED] 68042.008
    
    [GRAPHIC] [TIFF OMITTED] 68042.009
    
    [GRAPHIC] [TIFF OMITTED] 68042.010
    
    [GRAPHIC] [TIFF OMITTED] 68042.011
    
    [GRAPHIC] [TIFF OMITTED] 68042.012
    
    [GRAPHIC] [TIFF OMITTED] 68042.013
    
    [GRAPHIC] [TIFF OMITTED] 68042.014
    
    [GRAPHIC] [TIFF OMITTED] 68042.015
    
    [GRAPHIC] [TIFF OMITTED] 68042.016
    
    [GRAPHIC] [TIFF OMITTED] 68042.017
    
    Mr. Chaffetz. We look forward to hearing from our panel of 
witnesses. I would like to recognize the distinguished ranking 
member, the gentleman from Massachusetts, Mr. Tierney, for his 
opening statement.
    Mr. Tierney. Thank you, Mr. Chair, and thank the witnesses 
for being with us here today.
    I am going to ask that my statement in its entirety be 
placed in the record, if there is no objection.
    Mr. Chaffetz. Without objection, so ordered.
    Mr. Tierney. I would just make a couple of quick points, in 
the interest of time here. One is obviously that we stand by 
the Japanese people during this very difficult time and we will 
continue to do that, I am sure.
    But also, by all accounts, it would seem to us that the 
response in this country worked admirably during the Japanese 
tsunami situation. So I want to thank all of you and 
congratulate you on that. According to the interim director of 
the Emergency Management Association from Oregon, ``The Federal 
response to this disaster was magnificent.''
    So it doesn't belie the fact that we all need to continue 
to be prepared. We can never be too prepared on that. And 
Congress has to make sure that there is adequate support for 
each and every one of these agencies in all of their 
responsibilities, but in particular on this topic with respect 
to the tsunamis.
    I am a bit concerned when I look at some of the budget 
proposals being put forward. They do reduce the budget for a 
number of the agencies, and I want to hear from the witnesses 
at some point during the time whether or not that is likely to 
impact our ability going forward to be as prepared and ready 
both to detect and to respond to these incidents.
    So with that, I yield back, Mr. Chairman. Thank you again.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC] [TIFF OMITTED] 68042.018
    
    [GRAPHIC] [TIFF OMITTED] 68042.019
    
    Mr. Chaffetz. Thank you.
    Members will have 7 days to submit opening statements for 
the record.
    We will now recognize our panel. Dr. William Leith is the 
Acting Associate Director for Natural Hazards at the U.S. 
Geological Survey. Ms. Mary Glackin is the Deputy Under 
Secretary for Operations at the National Oceanic and 
Atmospheric Administration. Ms. Nancy Ward is the Regional 
Administrator for Region IX of the Federal Emergency Management 
Agency. Kenneth Murphy is the Regional Administrator for Region 
X of the Federal Emergency Management Agency. And Mr. John 
Madden is the director of the Division of Homeland Security and 
Emergency Management for the State of Alaska.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you would please rise and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Chaffetz. Let the record reflect that the witnesses 
answered in the affirmative. Thank you.
    We will now hear your testimony. If you would be so kind as 
to limit your comments to 5 minutes. Your full statement will 
be submitted for the record, for others to be able to peruse. 
But if you could keep your verbal comments to 5 minutes, in 
order to get through this, plus the questioning, we would 
certainly appreciate it. You should see a nice red light when 
you get to that 5 minutes.
    We will start with you, Dr. Leith. You are recognized for 5 
minutes.

  STATEMENTS OF WILLIAM LEITH, ACTING ASSOCIATE DIRECTOR FOR 
  NATURAL HAZARDS, U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT OF 
INTERIOR; MARY GLACKIN, DEPUTY UNDER SECRETARY FOR OPERATIONS, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
 DEPARTMENT OF COMMERCE; NANCY WARD, REGION IX ADMINISTRATOR, 
  FEDERAL EMERGENCY MANAGEMENT AGENCY, ACCOMPANIED BY KENNETH 
 MURPHY, REGION X ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT 
   AGENCY; AND JOHN W. MADDEN, DIRECTOR, ALASKA DIVISION OF 
           HOMELAND SECURITY AND EMERGENCY MANAGEMENT

                   STATEMENT OF WILLIAM LEITH

    Mr. Leith. Mr. Chairman, members of the subcommittee, thank 
you for inviting the U.S. Geological Survey to testify at this 
hearing.
    The USGS is tasked under the Stafford Act to issue 
forecasts and warnings for earthquakes, volcanic eruptions and 
landslides. For tsunami, we provide critical science and 
monitoring support to NOAA, FEMA and other agencies. We provide 
hazard alerts to a broad suite of users, including the general 
public.
    The scope of each notification depends on the severity and 
extent and possible impact of the event. Our key users include 
not only FEMA and NOAA, but the Nuclear Regulatory Commission, 
State transportation and water Management agencies, including 
Utah, for example, local emergency managers and national and 
international disaster response organizations.
    To monitor earthquakes in the United States and abroad, the 
USGS operates the Advanced National Seismic System, and in 
partnership with the National Science Foundation, the Global 
Seismographic Network. ANSS and GSN seismic data are relayed 
directly to the NOAA tsunami warnings centers, enabling them to 
respond within minutes of a major event.
    We also participate in the National Tsunami Hazard 
Mitigation Program [NTHMP]. The USGS invested $2.3 million in 
fiscal year 2010 in research and assessment activities 
supporting the goals of the NTHMP. USGS contributes guidance in 
the preparation of tsunami inundation maps, as well as 
capabilities to survey coastal and near-shore bathymetry and 
topography, which of course strongly influence tsunami wave 
heights and inundations.
    The U.S. west coast, Hawaii and the Pacific territories are 
all at risk for damage from tsunami generated by earthquakes. 
Our shores host two subduction zones that are capable of 
magnitude 9 earthquakes: one offshore of Alaska, which last 
ruptured in 1964, and the other in the Pacific Northwest, known 
as Cascadia, which last ruptured in 1700. This latter one 
deserves special mention. Recent investigations of offshore 
deposits indicate that the zone may have produced magnitude 9 
size earthquakes perhaps 20 times in the last 10,000 years. 
Further research is therefore needed to fully document and 
assess the earthquake potential in this area.
    With respect to our southern and eastern shores, the USGS 
has done extensive research for the Nuclear Regulatory 
Commission on tsunami history and potential in the Atlantic 
coast and the Caribbean. These regions have less frequent 
damaging tsunami than in the Pacific, and historic tsunami of 
the size that hit Japan on March 11th are not known. But the 
historic and geologic record suggests that the tsunami risk 
here cannot be dismissed.
    What did we learn from the recent Japanese earthquake and 
tsunami? On the day of the earthquake, technical coordination 
between NOAA, the tsunami warning centers and the USGS National 
Earthquake Information Center was seamless. Since then, close 
coordination of post-disaster information and response 
activities has occurred under the protocols of the National 
Earthquake Hazard Reduction Program.
    Also, while tsunami damage and loss of life were heavy in 
Japan, it appears that the investments made there in monitoring 
and warning systems, earthquake-resistant construction, public 
information and preparedness activities actually significantly 
limited the damage and loss of life before the earthquake. 
Still, the disaster has taught us that scientists need to 
thoroughly document the prehistoric record of large earthquakes 
in order to fully assess their likelihood and consequences.
    Looking forward, the United States can reduce tsunami 
risks, improve public warning and response in three basic 
areas. First, continued public education through ongoing 
efforts in the United States, Pacific States and territories, 
particularly in Hawaii and the Pacific Northwest. Second, the 
completion of this advanced national seismic system including 
the enhancement of networks in the eastern United States and 
the development of earthquake early warning capabilities which 
were in place in Japan and apparently effective. And third, 
enhanced research into the frequency and effects of prehistoric 
tsunamis. Our recorded history is simply too short to provide 
adequate probabilities for such rare events.
    Mr. Chairman, this concludes my remarks, and I would be 
happy to take any questions you or the committee may have.
    [The prepared statement of Mr. Leith follows:]
    [GRAPHIC] [TIFF OMITTED] 68042.020
    
    [GRAPHIC] [TIFF OMITTED] 68042.021
    
    [GRAPHIC] [TIFF OMITTED] 68042.022
    
    [GRAPHIC] [TIFF OMITTED] 68042.023
    
    [GRAPHIC] [TIFF OMITTED] 68042.024
    
    [GRAPHIC] [TIFF OMITTED] 68042.025
    
    Mr. Chaffetz. Thank you. I appreciate your comments.
    Ms. Glackin, you are recognized for 5 minutes.

                   STATEMENT OF MARY GLACKIN

    Ms. Glackin. Thank you. Good afternoon, Mr. Chairman, 
Ranking Member Tierney and others members of the committee. We 
appreciate the opportunity to testify on this important topic 
this afternoon.
    NOAA plays a critical role in ensuring our Nation is warned 
of many natural and man-made hazards and prepared to respond to 
these. The March 11th Japanese earthquake and tsunami served as 
reminders of our vulnerability to these hazards. And as my 
colleague has just described, there are major threats in our 
coastal regions. A rupture along any of these faults could set 
off a tsunami relatively close to the shore and impact coastal 
communities in mere minutes. NOAA is working to ensure our 
Nation is prepared for such potential catastrophes.
    A comprehensive and effective tsunami warning process 
requires three parts. First, observations for detection and 
models to forecast the path and the impact. Second, timely and 
accurate alerts. And perhaps most importantly, community 
education and awareness to ensure the proper public response to 
alerts and warnings.
    Today I want to discuss very briefly how NOAA integrates 
all three of these components and works with our customers and 
partners to ensure our Nation is prepared. We provide a host of 
products and services that minimize the impact of tsunamis, 
from advance preparedness of coastal communities to detection 
and warning service to post-event response and recovery 
efforts. NOAA operates a suite of instruments and tools, 
including an array of ocean buoys and monitoring stations more 
to the sea floor, sea level gauges at the coastline, our polar 
orbiting satellites are involved and that of our advanced 
computer modeling.
    NOAA's services include around the clock forecast and 
warning centers and extensive public outreach and education 
efforts. Within minutes of the Japanese earthquake, NOAA 
received seismic data from USGS and other partners, and issued 
tsunami warnings and information statements for both domestic 
and international communities through our two centers in Hawaii 
and Alaska.
    Wave data from our deep ocean data buoys and coastal data 
from our tide gauges were relayed via satellites and integrated 
into tsunami models. Our talented professionals translated this 
into warnings and forecasts. These alerts and warnings provided 
lead times of 7 hours for Hawaii, 4 hours for Alaska, and 9 
hours for the west coast. Local and national weather service 
forecast offices that serve the U.S. coastline issued localized 
tsunami impact statements.
    Together, this information helped emergency managers and 
local officials evaluate the ongoing threat until all the 
warnings and advisories were finally dropped over 36 hours 
after the initial earthquake.
    The best warning information, however, is worth little 
unless those at risk are prepared and ready to respond. To 
achieve this level of preparedness, NOAA is engaged in an 
extensive array of outreach and education efforts. We work with 
our Federal partners, with local and State governments through 
the National Tsunami Hazards Mitigation program. This program, 
formed in 1995 and reauthorized by Congress in 2006, works to 
reduce the impact of tsunamis on the U.S. coastal communities 
and includes all 28 U.S. coastal States, territories and 
commonwealths.
    This program stresses the importance of NOAA's tsunami-
ready program, a voluntary partnership among NOAA, State and 
local emergency management agencies. It strives to increase the 
public awareness of the threat that tsunamis pose, improve 
hazard planning and strengthen warning communication, linking 
the emergency management community with the public. Currently, 
there are 83 tsunami-ready communities. NOAA's goal is to 
recognize 105 by 2013.
    We believe that tsunami-ready and the National Tsunami 
Hazards Mitigation Program is a model program for how the 
government at all levels can work together to improve hazard 
resilience in the United States.
    In summary, the investments made by Congress and the 
administration in NOAA's tsunami warning system and the 
National Tsunami Hazard Mitigation program directly saved lives 
in the United States during last month's Pacific-wide tsunami 
disaster. Nothing can eliminate the physical threat that 
tsunamis pose. However, NOAA remains committed to leading U.S. 
efforts to save lives and property through tsunami 
preparedness, detection and forecasting efforts.
    We will work in partnership to continuously improve our 
natural hazard services to the Nation. Thank you.
    [The prepared statement of Ms. Glackin follows:]
    [GRAPHIC] [TIFF OMITTED] 68042.026
    
    [GRAPHIC] [TIFF OMITTED] 68042.027
    
    [GRAPHIC] [TIFF OMITTED] 68042.028
    
    [GRAPHIC] [TIFF OMITTED] 68042.029
    
    [GRAPHIC] [TIFF OMITTED] 68042.030
    
    [GRAPHIC] [TIFF OMITTED] 68042.031
    
    [GRAPHIC] [TIFF OMITTED] 68042.032
    
    [GRAPHIC] [TIFF OMITTED] 68042.033
    
    Ms. Ward, you are recognized for 5 minutes.

                    STATEMENT OF NANCY WARD

    Ms. Ward. Good afternoon, Mr. Chairman, Ranking Member 
Tierney and distinguished members of the subcommittee.
    I am the Regional Administrator for FEMA Region IX. My 
region encompasses California, Hawaii, Arizona, Nevada, 
American Samoa, Guam, the Commonwealth of the Northern Mariana 
Islands, the Republic of the Marshall Islands and the Federated 
States of Micronesia.
    I am pleased to be here alongside Ken Murphy, Regional 
Administrator for FEMA Region X, which encompasses Alaska, 
Idaho, Oregon and Washington. We are honored to be here today.
    I would first like to say that our thoughts and prayers go 
out to the people of Japan as they continue to recover from the 
devastation of the past several weeks. The events in Japan also 
serve, however, as a reminder of the importance of tsunami 
preparedness in our own country. While tsunamis occur 
infrequently, they have the potential to cause major 
destruction to the coastal communities in several FEMA regions.
    Because tsunamis present great potential for damage to both 
people and property, all levels of government must be prepared 
for the threats associated with them. We in government also 
have a responsibility to coordinate our preparedness efforts 
with non-governmental entities, including private sector 
organizations, non-profit and faith-based groups, and perhaps 
most important, the individuals and families who live in these 
potentially affected communities.
    My written testimony discusses FEMA's catastrophic planning 
efforts, which both includes all hazards approaches, a certain 
hazard-specific plans in areas at heightened risk for tsunami. 
This afternoon, however, I would like to discuss the recent 
tsunami threat to Region IX as an example of how FEMA works to 
support our State and local partners in the event of tsunami 
threat.
    Just after 10 p.m. March 9th, FEMA region was alerted to a 
magnitude 9 earthquake, soon followed by a Pacific-wide tsunami 
warning. The Region IX watch center immediately alerted Region 
IX senior staff and made contact with our national watch 
center. Within the hour, the FEMA regional support team and our 
regional support coordination center was activated to a Level 
1, FEMA's highest activation level. Our regional on-call 
incident management assistance team was noticed and placed on 
alert for immediate deployment to a potential tsunami-impacted 
area. Key Federal agency partners were also mobilized and 
directed to report to the RRCC to emergency support function 
coordination and assets.
    Immediately following activation of our regional response 
coordination center, Region IX established lines of 
communication with our States and territorial partners, 
including FEMA Region X as a communication hub for 
jurisdictions throughout the Pacific. Simultaneously, in 
Hawaii, the FEMA Region IX Pacific Area office, located out in 
Fort Shafter in Hawaii, went operational. The Pacific Area 
office deputy director was dispatched to the State of Hawaii's 
civil defense emergency operations center and co-located with 
our State partners throughout the entire incident period.
    In the aftermath of the tsunami, Region IX worked closely 
with Hawaii and California to conduct preliminary damage 
assessments. These PDAs resulted in disaster declarations 
requests for both Hawaii and California, a disaster declared 
last week for the State of Hawaii and California's request is 
still under review. Similarly, in Region X, FEMA's activation 
and coordination with their States resulted in a disaster 
declaration for the State of Oregon.
    As is both policy and doctrine at FEMA, we worked very 
closely with all of our Federal Government partners, including 
invaluable contributions by both NOAA and the USGS. We also 
plan, train and exercise year around with State, local, tribal 
and territorial governments to help with tsunami and other 
planning education and awareness. As an example, FEMA supports 
the National Weather Service to promote the tsunami-ready 
campaign. We also encourage States and localities to use their 
grant funding to increase their disaster preparedness.
    While no coastal community is tsunami-proof, we work with 
the community leaders and emergency managers to reduce the 
potential for disastrous tsunami-related consequences. The 
events in Japan have also raised important questions as to how 
a catastrophic earthquake and tsunami might affect our nuclear 
facilities and surrounding areas. At the direction of 
Administrator Fugate, we have increased our participation and 
exercises associated with our nuclear plants.
    We are focused on conducting exercises that provide a true 
test of our emergency protocols and capabilities. This week, 
for instance, in San Onofre, California, State emergency 
experts are leading a mandated biennial exercise of the 
Southern California Edison Beachfront Nuclear Power Plant 
stationed in Orange County, California, a site, I might add, 
that supports the National Weather Service's tsunami-ready 
designation. As would be the case in any actual event, the NRC 
and the State have the primary authority. FEMA Region IX is 
participating in the exercise, both as a player and as an 
evaluator of how the exercise unfolds.
    Most important, however, we work to instill a commitment to 
personal preparedness. April is also earthquake preparedness 
month, which will provide more of a platform for us to 
disseminate information. Thank you.
    [The prepared statement of Ms. Ward follows:]
    [GRAPHIC] [TIFF OMITTED] 68042.034
    
    [GRAPHIC] [TIFF OMITTED] 68042.035
    
    [GRAPHIC] [TIFF OMITTED] 68042.036
    
    [GRAPHIC] [TIFF OMITTED] 68042.037
    
    [GRAPHIC] [TIFF OMITTED] 68042.038
    
    [GRAPHIC] [TIFF OMITTED] 68042.039
    
    [GRAPHIC] [TIFF OMITTED] 68042.040
    
    [GRAPHIC] [TIFF OMITTED] 68042.041
    
    Mr. Chaffetz. Thank you.
    Mr. Murphy, you are recognized for 5 minutes. Oh, joint 
statement. My apologies. Thank you. Well done, Mr. Murphy. 
[Laughter.]
    Best one we have heard yet. No offense. [Laughter.]
    Mr. Madden, we appreciate the distance that you have 
traveled here. You are now recognized for 5 minutes.

                  STATEMENT OF JOHN W. MADDEN

    Mr. Madden. Thank you, Mr. Chairman and Ranking Member 
Tierney, and members of the subcommittee, for this opportunity.
    I am the director of Homeland Security and Emergency 
Management for the State of Alaska. I am responsible for 
confronting the entire range of hazards that nature and humans 
can inflict on our citizens and economy.
    We are no stranger to disasters. We have fires, floods, 
storms and cold every year. But the seismic hazards of 
earthquakes and tsunamis give little or no warning and require 
a different approach to preparedness.
    In our history are many destructive earthquakes. The 
largest was the 9.2 earthquake which generated many tsunamis. 
It happened on Good Friday in 1964. That killed 131 people in 
Alaska, Oregon and California.
    We believe that tsunami preparedness is an enterprise, a 
purposeful and industrious undertaking that requires extreme 
coordination. The State of Alaska works with many organizations 
on this enterprise, including several that are here at the 
table today.
    We recently conducted the latest tsunami operations 
workshop in Dutch Harbor, Alaska, for communities throughout 
the 1,500 miles of the Aleutian Islands, the Alaskan peninsula 
and Kodiak Island. Many of these communities are within the 
areas that were threatened by the Japanese tsunami. Each 
community left that workshop with plans on evacuation, 
emergency operations and solid understanding of warnings, 
advisories and watches which were put to the test just a few 
weeks ago.
    On March 10th, Alaska received almost instant notification 
of the earthquake and shortly thereafter received the first 
advisories from the West Coast and Alaska Tsunami Warning 
Center. This emergency combined four factors that greatly 
complicated our response. The warnings came in the middle of 
the night, in winter, in adverse weather and in isolated 
communities far remote from each other and from the nearest 
help. We established voice contact with every community in the 
warning and advisory area, and ensured that community leaders 
had the information necessary for their local decisions.
    Alaska was very fortunate that only limited damage occurred 
in our coastal communities.
    During last month's event, the tsunami preparedness 
enterprise worked as designed overall. The continuous 
monitoring yielded immediate detection. The computer models 
determined the potential for tsunami. The alert and warning 
centers transmitted the critical information. The deepwater 
buoys provided data to recalculate the estimated arrival times 
and amplitudes to very high accuracy. And all the State assets 
were primed and ready to respond as needed. Most importantly, 
the communities received the information and invoked the plans 
that had been recently validated.
    The State of Alaska strongly supports this tsunami 
enterprise, and particularly the continued authorization and 
funding of the National Tsunami Hazard Mitigation program 
within the Federal Government. Through funding to the States 
with tsunami risk, this program advances preparedness through 
tsunami-ready communities, sirens, training, exercises, signage 
and much more. We also recommend that resilient and redundant 
communications systems be made the highest priority to ensure 
continuity of the tsunami warning network.
    The most critical element of the entire enterprise is 
public outreach and education. All the science, all the 
computers, all the warnings are useless if the affected 
community does not know how to respond to that threat. We must 
create and sustain a posture of preparedness in each person 
living or visiting our coastal communities. Only through 
exemplary interagency cooperation can we prepare for this most 
unpredictable and potentially devastating hazard.
    With the continued support of Congress, you can provide the 
partners in this vital enterprise, Federal, State and local 
governments and the general public, with the means to continue 
effectively to protect lives and property.
    [The prepared statement of Mr. Madden follows:]
    [GRAPHIC] [TIFF OMITTED] 68042.042
    
    [GRAPHIC] [TIFF OMITTED] 68042.043
    
    [GRAPHIC] [TIFF OMITTED] 68042.044
    
    [GRAPHIC] [TIFF OMITTED] 68042.045
    
    [GRAPHIC] [TIFF OMITTED] 68042.046
    
    Mr. Chaffetz. Thank you. I appreciate all your testimony. 
We will now move to a round of questioning. I am going to 
recognize myself to start for 5 minutes.
    Ms. Glackin, let's talk about the modeling. Because the key 
to all of this is that chain reaction that all starts with the 
modeling that says, here it comes. How complete is that? As you 
look at the U.S. coastline, including our territories, 
obviously Alaska and Hawaii, are there parts of that aren't 
mapped? I don't know the technical way to ask that, but where 
are the vulnerabilities in the detection models?
    Ms. Glackin. It is not all mapped. This is an area that we 
have been working on and in particular, using some of the 
resources that we have gotten from the Spectrum sale, which 
happened after the Indonesian tsunami. We have approached this 
in dealing with where we know there are risk areas. For 
example, as has been highlighted, off of Alaska and off of the 
Cascadia zone there.
    We have a recent report, we have gone to the National 
Academies of Science to ask for a review of our tsunami warning 
program overall. One of the things that they have encouraged us 
to do is, in partnership with our Federal partners and States 
is to do an overall risk assessment across the United States to 
really have a handle on what the particular challenge areas 
are. We would like to take that on as one of the things that we 
will be looking at to find ways to resource this.
    Mr. Chaffetz. So of our coastline, what percentage is not?
    Ms. Glackin. We are able to issue a tsunami warning for any 
part of our coastline. It is not that there would not be a 
tsunami warning. We will be able to give you a better, where we 
have the more detailed modeling done, we will be able to give 
you more information about what the potential impacts will be, 
how much inundation and things like that. I will have to get 
back to you with exactly what percentage of all that.
    Mr. Chaffetz. And that is the curiosity, as to where the 
vulnerabilities are. We have talked a lot about the Pacific, 
and my other part of the question is what about the Atlantic 
and obviously the Gulf and what-not? I don't know if you can 
speak to that.
    Ms. Glackin. I think that when you think about 
vulnerabilities, tsunamis are caused primarily by the seismic 
activity there. They can also be caused by landslides under 
water. There is a more technical term for this, my colleague 
knows, to do that. And so a lot of what we have been doing in 
partnership is being driven by the seismic assessment of 
theirs. So we have done that risk assessment. That has informed 
how we put out our monitoring stations, what we call our DART 
buoys for doing this. So that level is done.
    For us to make more progress, we have to do mapping of the 
inland areas there, so we have better handles on how the water 
will actually roll up.
    Mr. Chaffetz. As a followup, I would be very curious again, 
as to where the vulnerabilities are.
    Let me go to another part. In your written testimony you 
stated that ``NOAA provides a host of products and services 
that minimize the impacts from tsunamis, from advanced 
preparedness of coastal communities to detection and warning 
services to post-event response and recovery efforts.''
    Ms. Glackin. I can use exactly the example for this recent 
event. One of the things that NOAA does as part of our National 
Ocean Service is we do navigational mapping. So we went into 
Crescent Harbor in California, where there had been so much 
destruction, and our ships did surveys there to identify debris 
that was on the sea bed floor and allowed the Coast Guard to be 
able to, we found out where it is, the Coast Guard comes in and 
removes it. So they were able to open the ports in a timely 
fashion.
    Mr. Chaffetz. Let me go to Mr. Murphy. Your perceptions of 
concerns about what happens in your region, how good is this 
information that you are going to get? How is the coordination 
between the two different agencies?
    Mr. Murphy. I can tell you that it is very good, Mr. 
Chairman. We totally rely, actually not only on NOAA, but USGS 
products. And I can tell you from this recent Japanese 
earthquake and tsunami, everybody that I work with in our 
States usually are well wired into both the tsunami warning 
centers. You can also get your own personal alerts on your 
smart phone, BlackBerrys, computers. So I think a lot of that 
really pays dividends.
    I agree with Ms. Glackin, I know that we have reached out 
to them, because we had damage in some of the ports in Oregon. 
We had great partners, working together to try and get those 
ports back open. Because there are so many issues where you 
need NOAA and USGS, Coast Guard, a few other agencies to get 
these communities in a recovery mode and back operating.
    So I think as a group of agencies, we really do have to 
work together pre-event and post-event.
    Mr. Chaffetz. Thank you. My time is expired.
    I now recognize the gentleman from Massachusetts for 5 
minutes.
    Mr. Tierney. Thank you very much, Mr. Chairman.
    Ms. Glackin, I just want to cover a little bit of territory 
with you. I note that there was some speculation when the H.R. 
1, the so-called fiscal year 2011 proposal was originally 
presented, and was aiming to cut 16 percent of NOAA's budget, 
particularly that area devoted to operations, research and 
facilities, which would in fact fund some of the things yo have 
been talking about here today, including the DART buoys that 
are currently inoperative and the ability to maintain and 
repair them.
    Do we still run that risk? How much of a budget cut could 
you sustain without running that type of risk, which seems to 
me to be quite serious?
    Ms. Glackin. We were much relieved to see the numbers this 
week, compared to H.R. 1, in allowing us to be able to resource 
some of our critical operations. We are in the process of 
putting together a spend plan in terms of going forward in 
this. I think even importantly, getting some stability in the 
full-year funding is important, because we need to get out 
there with our ships and maintain some of our buoys, which we 
will be able to do once we all hope, I think, there is 
successful action this week on an appropriation.
    Mr. Tierney. I take it that the fact that you suspended the 
maintenance and detection infrastructure and repair on that 
basis would indicate that 16 percent was certainly going to 
require that you cut some?
    Ms. Glackin. That is right.
    Mr. Tierney. And now you are looking to see how much you 
have to cut? Or is there a chance that you won't have to cut 
anything?
    Ms. Glackin. I think it is premature for me to say. We have 
challenges, certainly, at the funding level that is presented 
to us. And NOAA is working within the administration to develop 
a spend plan, which it will bring up for approval in Congress. 
So I think we will have tough choices to make in that, but it 
is premature to say what they would be.
    Mr. Tierney. Now, the nine DART buoys that are currently 
inoperative, how long have they been inoperative?
    Ms. Glackin. Sir, let me say a few words about that. Our 
DART buoy network is designed with some redundancy in it.
    Mr. Tierney. I would assume.
    Ms. Glackin. Yes, because you have them off the coast of 
Alaska. They will fail becomes sometimes the weather just pulls 
the moorings out and things like that.
    What we like to do is get out there as soon as possible 
when we get good weather, get our ships out there and get those 
repaired. So we have been delayed in doing that this year, 
because of the lack of funding situation. So with the stability 
and funding going, we will be able to get those ships out there 
and get them repaired.
    Mr. Tierney. Thank you, Mr. Chairman. I yield back.
    Mr. Chaffetz. Thank you.
    I now recognize the gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you. Thanks for taking the time and 
also thanks for waiting for a long time. We have had a hectic 
day and I know it has been difficult for you waiting. So I 
appreciate that.
    Dr. Leith, in your testimony you state that the west coast 
of the United States, Hawaii and the Pacific Territories are 
all at risk for damage from tsunamis generated by distant 
earthquakes. How do you think, and Ms. Glackin, how do risks of 
such destructive tsunamis for the United States compare to what 
we have seen in Japan historically? And can you describe the 
potential damage that would result, and are we prepared as a 
Nation?
    Mr. Leith. The example that I would like to give in terms 
of the risk that we face is coming from Alaska, a known zone 
which can produce very large earthquakes and tsunami, is that 
we have had tsunamigenic earthquakes in the 1920's and 1930's, 
1940's, 1950's and 1960's. But we have not had any since the 
1960's. So we are in a situation, the earth is quite 
unpredictable in its generation, the timeliness of its 
generation of earthquakes. And what I would say as an earth 
scientist is that stress is building up. We can expect another 
tsunami coming from Alaska.
    I can't comment, and it is outside the work of our agency, 
in terms of the preparedness on the coastline for that. But we 
are working with NOAA and FEMA and developing scenarios for a 
large earthquake generated in Alaska and its impact all the way 
down on the coast. USGS provides the scientific basis for that 
scenario, and then the other partners, Federal, State and 
local, take it from there to evaluate the impacts.
    Mr. Labrador. Ms. Glackin.
    Ms. Glackin. Thank you. I think all of us appreciate this 
committee taking the time to have this hearing. Because I think 
what we can't afford as a Nation is complacency. That is the 
danger with events that are infrequent, like tsunamis.
    I think with respect to the vulnerability in this country 
that our ability to put out warnings, as long as we are able to 
sustain our infrastructure that is there, I feel good about. I 
think that there is a real challenge, though, in keeping the 
local communities ready to respond for this.
    I really want to make the point to this committee that is 
in my written testimony but I didn't say here, when you have 
these local tsunamis, you really need to know, to move and not 
wait for the warning. People have to be trained and in tune and 
when that ground is shaking and the water is receding, you 
move. You are not waiting for your cell phone to tell you 
something.
    And the fact that this is in the coastline, where we have 
so many visitors, populations swell there, people are 
unfamiliar with roads, it is incredibly important that they are 
able to move from that coastline and know what to do.
    So that is going to take a continued, I think, investment 
and attention at all levels of government.
    Mr. Labrador. Thank you.
    To followup on that comment, Mr. Murphy, and I am going to 
ask the question of all the panelists, what can we do to 
improve warning and response times?
    Mr. Murphy. I think probably, and I would agree with Ms. 
Glackin, we can never be too prepared. As you might well 
imagine, we have so many visitors on the Pacific coast, both in 
Ms. Ward's region and mine, that you never can over-educate the 
people. I think it is something you have to consistently do. 
You clearly have to partner with everybody.
    In FEMA, we have taken an initiative called the whole of 
community. You really have to share resources and make 
everybody a part of that team.
    I can tell you that some of our States in Region X, Oregon 
and Washington, you have to partner with the hotel association 
and get them to make some investments about teaching their 
visitors who stay in their facilities what to do. Because 
somebody from a landlocked State or part of the country may not 
understand what you need to do in a tsunami. I know we promote 
really, don't drive, you go up a hill or things like that, and 
try to teach them some things. And of course, basic 
preparedness for any type of disaster. If that family takes the 
time to have a family plan, build a kit and stay informed of 
what is going on, they will have a much better chance.
    Then I would finally say, both Ms. Ward and I in our 
regions continue to work on catastrophic planning of what can 
happen. Since this is a no-notice event, the Cascadia 
Subduction Zone lies very close to the west coast of the United 
States, it would take a very quick second to change how life 
would be out there. So we keep working on the catastrophic 
issue and how we might deal with it.
    Mr. Chaffetz. The gentleman's time has expired.
    Mr. Tierney. Mr. Chairman?
    Mr. Chaffetz. Yes?
    Mr. Tierney. Mr. Chairman, I ask for unanimous consent that 
the gentlewoman from Hawaii be allowed to participate on the 
panel. And given that all the Members have asked at least one 
round, be now allowed to ask 5 minutes of questions.
    Mr. Chaffetz. Without objection, so ordered.
    Mr. Tierney. Thank you.
    Mr. Chaffetz. We will now recognize the gentlewoman from 
Hawaii.
    Ms. Hanabusa. Thank you, Mr. Chairman, and thank you to the 
members of this committee.
    To those who are testifying, thank you for being here. As 
mentioned, I represent Hawaii, and I represent the first 
congressional district, which as some of you may know, contains 
the Pacific Tsunami Warning Center. It is a place and an issue 
that is very dear to many of us, especially in light of the 
last tsunami that hit Japan. And we do know the impact of what 
the warning system meant for the people of Hawaii. We were very 
fortunate, we had no deaths. We did have property damage. But I 
credit that to really how well it operates. Because of that, I 
asked to be permitted to sit here.
    My main concern, of course, first, and I guess we can start 
with Ms. Glackin, is to discover the NOAA budget, which is 
presently scheduled to be cut. What impact will that have on, 
for example, the Pacific Tsunami Warning Center? I know I am 
reading your statement, you felt the Continuing Resolution has 
had an impact in terms of the DARTs not being able to be 
repaired and so forth. I think you said nine are inoperative at 
this time.
    So can you tell me exactly what impact it would have, at 
the present funding level?
    Ms. Glackin. With the proposed funding level of the bill 
that is under consideration now, it does present challenges for 
NOAA. We will have some very tough choices in front of us given 
the breadth of activities that we have and the many critical 
services we provide. I didn't go into it here but mentioned 
elsewhere are things like hurricane services, severe weather, 
we have flooding going on in the country now, in the north 
central part of the country, and dams that are in danger of 
failing there.
    So we will have very tough challenges in front of us. It is 
premature to say, and I am not able to today, because decisions 
haven't been made about how we will make all of those 
decisions. But we are anxious, getting the DART buoys repaired 
is, I can tell you, near the top of our list. So I expect to 
see action on that, shortly after getting this next pot of 
money in our checkbooks at NOAA.
    Ms. Hanabusa. The issue of the DARTs, and I think our 
written testimony stated that there are nine that are 
inoperative. Can you tell me where those nine are located?
    Ms. Glackin. They are along Alaska and along the Aleutian 
Islands. I have a little map here that will tell me that.
    Ms. Hanabusa. Is that the map in your testimony?
    Ms. Glackin. Yes, it is the map in the testimony. So there 
is one on the Aleutians, there is one off of the Puget Sound, 
out that way. They are in the territories, in the Midway 
between Hawaii and Japan. And then there are several, one in 
the Caribbean, one off the Atlantic coast and two down toward 
Australia.
    Ms. Hanabusa. So are those the ones in red in your map?
    Ms. Glackin. Yes.
    Ms. Hanabusa. Can you explain, I only have a minute plus 
here, but can you explain what the DART does and how 
significant they are to the warning system?
    Ms. Glackin. One of the things I think it is important to 
understand about warnings is, you don't want to cry wolf. If 
you warn too much, people won't take action. We have talked 
about here today how important it is for people to take action. 
NOAA will make its first judgment about issuing information 
based on the seismic activity. So when we hit a 7.1, we are 
going to go ahead and alert people of this potential.
    What the DART does is allow us to actually detect whether a 
wave is moving. And if a wave isn't moving, we will immediately 
tell people to stand down. We haven't cried wolf, you will be 
more responsive next time.
    So that is what the DART buoy does. It helps us pick up the 
wave moving across the ocean. Then we further confirm that with 
coastal tide gauge stations. So for example, off of Hawaii, we 
have a good network of tide gauge stations. They will also 
begin to detect water level changes.
    Ms. Hanabusa. I would like to say that you were spot on on 
the height of the waves as they hit the Hawaiian Islands. I 
believe that is really due to the DART system that you have in 
place.
    I also wanted to emphasize that my understanding is the 
biggest tsunami we had in Hawaii, that killed about 159 people, 
and the biggest one that hit Alaska, were off the Aleutian 
islands, weren't they?
    Ms. Glackin. Yes, that is correct.
    Ms. Hanabusa. Thank you. Thank you very much, Mr. Chair.
    Mr. Chaffetz. Thank you.
    I would now like to recognize myself for another 5 minutes.
    Mr. Madden, you are right there on the front lines. You 
have testified that in terms of your interactions that things 
are as they are supposed to be. But this is a golden 
opportunity to suggest, crystal clear for the committee and for 
the Congress, what it is you think is missing from what the 
Federal Government is providing you in terms of information, 
etc.
    Mr. Madden. Mr. Chairman, there are two items on that. One 
is that the emphasis so far has been on the seismic-generated 
tsunamis. The major killer in 1964 were the local tsunamis. The 
earthquake caused half of a mountain to slide down into the 
water. The water then proceeded in, not at a 33 feet height, 
but at a 200 feet height. And that gives almost no notice.
    So it is the shaking of the ground, which is the only 
notice that the people have. That is why the preparedness is so 
important.
    The second part is that, during this event, I am fortunate 
that the West Coast and Alaska Tsunami Warning Center is only 
40 miles from my emergency operations center. I put a person in 
that center with a cell phone and a radio just in case 
something happened. And in this event, there was so much 
worldwide interest that the Web site could no longer put out 
their notices. They were still putting it out by fax and other 
means. But they lacked the bandwidth to fully accommodate all 
of the interest and all of the system's demand.
    We accommodated that within our State, that served us. Had 
it been longer than that, we were standing ready to contact our 
counterparts in Hawaii to act as that go-between. So it is 
communications system, bandwidth and enough capacity to handle 
a worldwide interest item, and that public education that for 
those coastal communities, if the earth shakes, don't wait, go 
to higher ground. That is the only way that the local tsunami 
threat will be reduced and save lives.
    Mr. Chaffetz. Thank you.
    Ms. Ward, we don't have California represented, and I 
believe that is part of your region. From your perspective, the 
Federal Government perspective, what are the States doing right 
or wrong? How well prepared are they?
    Ms. Ward. Mr. Chairman, I think that along with my 
counterparts in Region X and the State of Alaska, they are 
doing the things that they need to do to get out the 
preparedness campaign, all hazards. And we have a couple of 
things, tsunami awareness week that ironically was just last 
week. And we do all hazards and catastrophic planning that we 
have focused on for the last several years significantly.
    While some of those plans have focused on earthquake-
specific, what we use and what we saw just recently for the 
State of Hawaii, as an example, is that planning, we use that 
specific plan that was for a Category 5 hurricane hitting 
Honolulu, we used the same elements of that plan, those 
checklists, to start our response activities for this event.
    So we feel that they are doing what they need to be doing 
in partnership with all of us for preparing. But as you have 
heard from the panel, the complacency of preparedness, 
especially in an event or scenario that doesn't happen very 
often but that can have devastating effects to coastlines where 
we all share, at least at this end of the table, with tourists 
who come now and then to a place where they may not be as aware 
of these types of risks. It is a challenge and a balance to 
keep that preparedness.
    Mr. Chaffetz. From your perspective, Ms. Ward and Mr. 
Murphy, are any of the States not doing what they are supposed 
to be doing? From your perspective, your professional 
perspective, are there any that are lagging behind or just 
ignoring the threat?
    Ms. Ward. Mr. Chairman, I would say no. But I would also 
caution that in these economic times, for State governments and 
our territorial governments, that it is a challenge to 
prioritize these types of activities. But it is certainly a 
priority for all of my States and territories.
    Mr. Chaffetz. Thank you. As we kind of wrap up here, maybe 
you could just, we will start with Mr. Madden, the No. 1 thing 
you would like to see happen moving forward.
    Mr. Madden. The ability for communities to make informed 
decisions requires the network and on the training and exercise 
for them. So it is continuous emphasis on the individual's and 
the community's decisionmaking.
    Mr. Chaffetz. Thank you.
    Mr. Murphy.
    Mr. Murphy. I would concur with Mr. Madden, but I would 
also say that we need to continue to improve and escalate our 
efforts in catastrophic planning. If we really did have 
something that would hit the entire west coast, you really need 
a plan that will deal with that. So more and continued work.
    Ms. Ward. And I would agree with both of them and add that 
the emphasis on personal preparedness for a plethora of risks 
is extremely important.
    Ms. Glackin. I think what I would say is sustained 
improvement of the services we have now. And going to your 
first question, Mr. Chairman, I would say your point about 
really having the overall national assessment of tsunami risk 
done for the Nation, so that we are ensuring that we are 
covering everything that needs to be done.
    Mr. Leith. Thank you. I would come in from the technical 
and scientific side and say that I would very much like to see 
the completion of a seismic network and delivery system in the 
United States, a modern one that replaces the one that was 
built over the decades at the last part of the previous 
century.
    Mr. Chaffetz. Very good.
    Thank you all for attending. Please, if there are 
additional comments that you wish to submit, information that 
you can provide the committee, we would certainly appreciate 
that. Your full testimony, if you weren't able to get through 
it all, will be submitted again for the record. We appreciate 
the great length and time, we appreciate your understanding. We 
started a bit late, given the votes on the floor. Particularly 
Mr. Madden, who traveled such a great distance, we appreciate 
you all being here.
    The great work that you do, it is a thankless job in many 
ways, but so vital when that disaster hits. We appreciate your 
dedication and your work for our country and thank you for 
being here.
    At this time, the committee stands adjourned.
    [Whereupon, at 4:05 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 68042.047

[GRAPHIC] [TIFF OMITTED] 68042.048

[GRAPHIC] [TIFF OMITTED] 68042.049

[GRAPHIC] [TIFF OMITTED] 68042.050

[GRAPHIC] [TIFF OMITTED] 68042.051

[GRAPHIC] [TIFF OMITTED] 68042.052

[GRAPHIC] [TIFF OMITTED] 68042.053

                                 <all>

</pre></body></html>
